HHS/OIG, Audit -"Review of Missouri's Accounts Receivable System for Medicaid Provider Overpayments,"(A-07-05-03071)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Missouri's Accounts Receivable System for Medicaid Provider Overpayments," (A-07-05-03071)
May 23, 2005
Complete
Text of Report is available in PDF format (467 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if the State agency reported Medicaid provider overpayments pursuant
to Federal regulations.  We found that the State agency did not report 34 Medicaid provider overpayments
on the quarterly CMS 64 reports pursuant to Federal regulations.  The State agency did not have
sufficient policies and procedures in place to ensure all overpayments were reported pursuant to Federal
regulations.  As a result, the State agency delayed returning the Federal share of overpayments
totaling $1,090,421.  Of that amount, the State agency had not yet reported or returned to the
Federal Government overpayments totaling $1,068,751 as of December 7, 2004.  Additionally, the
State agency did not reclaim $25,049 (Federal share) pursuant to Federal regulations.
We recommended the State agency should (1) return to the Federal Government $1,093,800 of overpayments
as soon as possible and (2) strengthen policies and procedures to ensure all overpayments are reported
pursuant to Federal regulations.  Although the State agency agreed with some of our findings and
recommendations, it disagreed with certain aspects of our findings and recommendations.